                                     May 5,2000


MEMORANDUM TO:

FROM:

THROUGH:

SUBJECT:                            Closeout Case 1-99070026 and      w
                                   I

       On April 14, 1999 an anonymous source sent a letter to the G. A. 0. Fraud
Hotline alleging that, -                   a Professor of Physics at
defrauded the federal government through support from National
                              two attachments: (1) a February 1999 memorandum from
                     Chair of the Department of Physi
complications in the Fall 1999 schedule; and (2) a copy o
On April 23, 1999, the G. A. 0 . Fraud Hotline forward
                                                                                /
science Foundation (NSF).

        The Office of Inspector General opened an investigation to consider this

                                                                        6
allegation. On July 7, 1999, we requested a copy of all travel vouche s and salary
account summaries for NSF cooperative agreement                 entitled
                                                           Region. This cooperative
                                                                 a,          a area
and is designed to                           in scientific research. I          sa
co-PI on this cooperative agreement.

       On August 12, 1999, the Vice President for Fiscal Affairs at
responded with copies of all travel vouchers with supporting
account summaries. After reviewing this material, we noticed several questionable cash
advances and miscellaneous expenses that appe                           SF cooperative
agreement. Accordingly, we requested the
          provide additional information on a                         aneous expenses
and student travel charged to this cooperative agreement.

        On February 7, 2000, the                              responded with a letter
explaining the rather confusing nature of                      accounting summaries.
According to the                                                on the General Ledger
and Control Spreadsheets were charged to the NSF cooperative agreement although many
check copies list a combination of expenses charged to the NSF cooperative agreement
and third party grants.
        On March 1,2000, the Vice President for Fiscal Affairs
a copy of all cash advances, miscellaneous expenses and stu
~ ~ ~ c o o ~ e r aagreement.
                    tive         After consideringthis information, along with the original
information relating to travel vouchers and salary account
intentional diversion of fun
charged a wide variety of
miscellaneous expenses charged to this cooperative agree
theater, jazz concerts and b
charged catering, musicians a
several students to enroll in th
are referring this matter to t
charged to this cooperative ag                      his referral, we are closing this case.
